<html>
<title> - OVERSIGHT HEARING ON FEDERAL ACTIONS TO CLEAN UP CONTAMINATION FROM LEGACY URANIUM MINING AND MILLING OPERATIONS</title>
<body><pre>[Senate Hearing 112-961]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-961
 
  OVERSIGHT HEARING ON FEDERAL ACTIONS TO CLEAN UP CONTAMINATION FROM 
              LEGACY URANIUM MINING AND MILLING OPERATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CHILDREN'S HEALTH 
                    AND ENVIRONMENTAL RESPONSIBILITY

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 6, 2011

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
  


         Available via the World Wide Web: http://www.fdsys.gov

                               __________
                               
                               
                  U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-964 PDF                 WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                    
                               
                               
                               
                               
                               

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      ONE HUNDRED TWELFTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico                MIKE JOHANNS, Nebraska
JEFF MERKLEY, Oregon                 JOHN BOOZMAN, Arkansas
KIRSTEN GILLIBRAND, New York

       Bettina Poirier, Majority Staff Director and Chief Counsel
                 Ruth Van Mark, Minority Staff Director
                              ----------                              

                   Subcommittee on Children's Health 
                    and Environmental Responsibility

                    TOM UDALL, New Mexico, Chairman
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
KIRSTEN GILLIBRAND, New York         DAVID VITTER, Louisiana
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
    officio)                             officio)
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            OCTOBER 6, 2011
                           OPENING STATEMENTS

Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......     1
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     3

                               WITNESSES

Weber, Michael, Deputy Executive Director For Materials, Waste, 
  Research, State, Tribal and Compliance Programs, United States 
  Nuclear Regulatory Commission..................................     4
    Prepared statement...........................................     7
    Responses to additional questions from Senator Udall.........    16
Geiser, David , Director, Office of Legacy Management, Department 
  of Energy......................................................    24
    Prepared statement...........................................    25
    Responses to additional questions from Senator Udall.........    31
Woolford, James, Director, Office of Superfund Remediation and 
  Technology Innovation, Office of Solid Waste and Emergency 
  Response, U.S. Environmental Protection Agency.................    44
    Prepared statement...........................................    46
    Responses to additional questions from Senator Udall.........    52

                          ADDITIONAL MATERIAL

Statements:
    Uranium Producers of America.................................    75
    Cibola County Commission.....................................    87


  OVERSIGHT HEARING ON FEDERAL ACTIONS TO CLEAN UPCONTAMINATION FROM 
              LEGACY URANIUM MINING AND MILLING OPERATIONS

                              ----------                              


                       THURSDAY, OCTOBER 6, 2011

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Tom Udall 
(chairman of the subcommittee) presiding.
    Present: Senators Udall and Barrasso.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. The Subcommittee will come to order.
    I told the witnesses, but I will tell everybody that is 
here, we are expecting a vote at 10:30. It looks like it is 
going to be right in that range. So what we will try to do here 
is get through the opening statements, your opening statements. 
Any other members of the Committee that show up, and then we 
will have to take a short break for that.
    My understanding is that it is only one vote, so we will be 
able to go over and come back quickly and then proceed into the 
questioning. I hope that we can get you back to your jobs at 
your offices quickly.
    So hello and welcome to the Subcommittee on Children's 
Health and Environmental Responsibility's Oversight Hearing on 
Federal Actions to Clean Up Contamination from Legacy Uranium 
Mining and Milling Operations. We will begin with some brief 
opening remarks and then we will hear from our witnesses.
    This hearing is needed to focus attention on the long 
legacy of contamination left by the rapid development of 
uranium in the Southwest during the cold war. We must not 
forget who paid the price for our national defense. I 
appreciate the participation of the three Federal agencies here 
today. They share a responsibility for the cleanup and 
monitoring of uranium legacy sites.
    I also appreciate the participation of communities, groups 
and tribes in preparation for this hearing. Some of these 
communities have submitted valuable written testimony for the 
record and the record will be open for 2 weeks for other 
stakeholders who would like to submit testimony.
    Here is what I hope this hearing will accomplish. First, 
maintain the focus of these agencies at the headquarters level 
about the obligation to clean up these abandoned uranium mine 
and mill sites. Second, meet those obligations with funding of 
the current 5-year plans and develop and fund followup plans 
where necessary. Third, ensure Federal agency cooperation, not 
only with each other, but also with the tribes and affected 
communities. And finally, ensure regulatory agencies make sure 
that this type of contamination never happens again, especially 
at or near existing legacy sites.
    The story of uranium development in the United States is a 
human story, and I must say, a tragic human story. During the 
early phase of uranium development, miners and mill workers 
were largely unaware of the dangers of radiation exposure. Even 
as the understanding of the dangers grew, the Federal 
Government failed to ensure that uranium workers and their 
families were safe from the hazards of exposure to radioactive 
materials.
    As a result, numerous illnesses and cancers began to emerge 
in the men and women who worked and lived near the mines and 
mills. Communities and families lost their water wells because 
of unsafe levels of radiation. Wives lost their husbands to 
cancer and developed their own sicknesses after years of 
washing clothes covered in yellow cake. Children played on 
uranium tailings piles and lived in radioactive homes.
    Thousands of individuals unwittingly gave their health and 
many gave their lives to national efforts to develop uranium 
for our cold war nuclear arsenal during the mid-20th century. 
While the cold war is over, the communities continue to 
struggle with contamination. Much of New Mexico's northwestern 
area is scattered with hundreds of uranium mines that were left 
abandoned and contaminated as the cold war was won and the 
uranium boom faded away.
    The Pueblo of Laguna was home to the Nation's largest open 
pit uranium mine. And many mines and mills were opened within 
the Navajo Nation. There has been so little realization of the 
uranium legacy outside the Southwest that even the largest 
release of radioactive material in U.S. history, in 1979, is 
not widely known outside the Navajo Nation. The catastrophic 
collapse of the United Nuclear Corporation uranium mill 
tailings facility near Church Rock, New Mexico, ranks second 
only to the Chernobyl nuclear reactor accident in total 
radiation released. The spill of contaminated materials 
released over 1,000 tons of radioactive tailings and 90 million 
gallons of toxic wastewater into the Rio Puerco, contaminating 
about 80 miles of the river. People and livestock were burned 
by the flowing acidic water.
    Finally, in 2008, Federal agencies responsible for the 
cleanup of legacy uranium on the Navajo Nation created a 5-year 
plan for cleanup. EPA has followed with an additional 5-year 
plan for the nearby Grants Mining District in 2010.
    While cleanup is moving decades after the initial 
contamination, some of these communities are faced with new 
proposals to restart uranium mining for energy purposes, 
opening up old wounds and arousing new passions. Regardless of 
our personal beliefs about nuclear weapons, nuclear power or 
future uranium mining, everyone should agree the Nation and the 
companies that profited from uranium development owe a debt to 
communities with legacy contamination and that can only be paid 
in full with a complete cleanup.
    Before I turn to our witnesses, I want to make one further 
connection to a related issue at the Judiciary Committee. In 
this Congress, I am working on a bipartisan basis to update the 
Radiation Exposure Compensation Act to better cover individuals 
exposed to radiation at mines, mills and downwind of nuclear 
test sites. I encourage my colleagues in the Judiciary 
Committee to take up this bill and ensure that compensation is 
fair for those who lost their health and lives to uranium 
development.
    And now let me turn to Senator Barrasso, who I welcome for 
any opening statements he may want to give. I very much 
appreciate his participation and involvement in this hearing 
today.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman. I too 
want to thank the witnesses for being here.
    Today's hearing is focused on the cleanup and legacy of 
cold war uranium mining. As many here may not know, Wyoming 
actually played an important part in the history of the defense 
of this Country, because nuclear missile silos have been in 
Wyoming since the early days of the cold war. Wyoming residents 
are proud of this legacy.
    We also believe that Washington has a responsibility to 
leave Wyoming as clean as when they found it. I have remained 
vigilant in ensuring that progress continues to be made in 
addressing the cleanup of cold war sites in my State. That 
includes having the Army Corps of Engineers cleanup our TCE 
contamination in the city of Cheyenne's water wells. TCE was 
used to degrease the rocket motors of our nuclear missiles to 
keep them ready during the Cuban missile crisis.
    In addition, Wyoming also has two cold war Legacy uranium 
mines, one in Riverton and the other about 32 miles north of 
Glenrock. Both have undergone environmental remediation by the 
Department of Energy. The Department continues to monitor those 
sites.
    As Ranking Member of the Senate Indian Affairs Committee, I 
understand the concerns of the tribes regarding the legacy of 
cold war uranium mines. I believe it is a fair question to ask: 
is the Department of Energy doing all that it can for the 
tribes and tribal members affected by this legacy?
    We must also not forget uranium mining today is much 
different than it was in what occurred years ago. It would be a 
mistake to compare cold war uranium mining decades ago with the 
modern uranium mining today. Wyoming residents understand this 
because we are an energy producing State with an abundance of 
uranium. There are people that work at the mines and they see 
the uranium production process first-hand. They know the 
importance of developing clean domestic energy for our Nation.
    The Department of Energy projects that U.S. energy demand 
will increase 21 percent between now and 2035. World energy 
consumption is estimated to grow by 49 percent in that same 
period of time between now and 2035. Meeting this increased 
demand is a major challenge. Access to affordable power is 
crucial for economic development. Our Country was built on 
inexpensive power. For our economy to remain competitive, we 
need cheap power.
    Families struggling to balance their budgets deserve access 
to affordable power. That is why when it comes to American 
energy, we need it all, nuclear, coal, natural gas and all the 
renewable sources. Nuclear energy currently provides about 20 
percent of our electricity. It generates roughly 70 percent of 
America's carbon-free power.
    Other nations are moving forward quickly on nuclear power. 
On the floor this week, we have been debating the China 
currency bill. China is currently building 25 new nuclear 
reactors. They know that nuclear power is essential to their 
economic engine.
    A key part of the overall issue of providing affordable 
energy is a nuclear fuel supply. We must have a stable and 
secure supply of nuclear fuel. We currently import nearly 90 
percent of uranium used in the United States nuclear reactors. 
Building new nuclear capacity without increasing domestic 
uranium production will make us more dependent on foreign 
sources for our electricity.
    The Administration must do more to support American uranium 
development, which will help our economy, will strengthen our 
job security and will create new jobs. I believe we can achieve 
this in a responsible and environmentally safe way.
    Thank you, Mr. Chairman, and I look forward to the 
testimony.
    Senator Udall. Thank you, Senator Barrasso, for that 
opening statement.
    At this point, we will proceed with our three witnesses. 
Why don't we start on the right here, with Mr. Michael Weber, 
with the U.S. Nuclear Regulatory Commission, and then just 
proceed down the row here. You each will have 5 minutes and 
your full statement will be put in the record. So that will be 
there for people to read so that you know that is in there.
    Mr. Weber, please proceed.

   STATEMENT OF MICHAEL WEBER, DEPUTY EXECUTIVE DIRECTOR FOR 
   MATERIALS, WASTE, RESEARCH, STATE, TRIBAL AND COMPLIANCE 
     PROGRAMS, UNITED STATES NUCLEAR REGULATORY COMMISSION

    Mr. Weber. Good morning, Chairman Udall, Senator Barrasso. 
It is a pleasure for me to appear before you today to discuss 
the U.S. Nuclear Regulatory Commission's regulation of uranium 
recovery facilities to protect public health and safety and the 
environment.
    In my testimony I will focus on several key points. First, 
most of the environmental contamination associated with uranium 
production activities in the United States occurred before 
Congress clarified the authority in this area in 1978, and 
certainly well before the current regulatory framework was put 
into place following that clarification. Second, today's 
conventional uranium mills and in situ recovery facilities are 
operating safely and in a manner that is protective of the 
environment. And third, NRC regulates these facilities in close 
coordination with other Federal agencies as well as State and 
tribal governments.
    Uranium mining and milling in the United States expanded 
considerably in the 1950's, 1960's and 1970's, driven by an 
increased demand for uranium to support both our national 
military uses and commercial nuclear power. Concerns about 
potential environmental and health hazards associated with mill 
tailings led the Congress to hold hearings in the late 1970's. 
These concerns compelled the Congress to enact what is referred 
to as the Uranium Mill Tailings Radiation Control Act, or 
otherwise known as UMTRCA, as an amendment to the Atomic Energy 
Act.
    With the enactment of UMTRCA, mill tailings and other 
associated wastes generated after 1978 became subject to NRC 
regulation. Contamination associated with hard rock and open 
pit mines that produced uranium ore was not addressed by this 
legislation.
    For facilities that were licensed on or after November 8th, 
1978, the NRC has jurisdiction over mill tailings under Title 
II of UMTRCA and implements standards issued by the 
Environmental Protection Agency through a comprehensive 
regulatory program.
    NRC is also cooperating with other Federal agencies in a 
coordinated effort to address uranium contamination at legacy 
mine sites in the Navajo Nation under the 5-year plan. 
Similarly, we are working with EPA and the State of New Mexico 
to address uranium contamination in and around Grants, New 
Mexico.
    UMTRCA authorized the inclusion of uranium recovery 
facilities within the framework established under the Atomic 
Energy Act, thus allowing NRC to enter into agreements with 
States to regulate uranium recovery facilities in lieu of 
Federal regulation. NRC has established agreements with Texas, 
Colorado, Utah and Washington to regulate uranium recovery 
facilities in those States.
    The State of New Mexico's agreement with the NRC included 
uranium recovery facilities until this part of the program was 
withdrawn by the State in 1986. NRC evaluates State regulatory 
activities through an integrated materials performance 
evaluation program to ensure that State regulatory activities 
remain both adequate to protect public health and safety and 
compatible with NRC's requirements. Under Title II of UMTRCA, 
NRC and agreement States regulate uranium waste generated 
during the operation to ensure protection of public health and 
safety and the environment. Our comprehensive regulatory 
framework ensures safe operation and decommission of both 
existing facilities and planned facilities. This includes 
comprehensive safety and environmental review of new 
applications for uranium recovery.
    After a license is issued for a new facility, the NRC or 
agreement State provides continued oversight of operations 
through periodic licensing reviews, inspections, assessment, 
enforcement and investigation.
    NRC works closely with other Federal agencies, State 
agencies and tribal governments. NRC recently issued three new 
licenses for uranium recovery facilities in Wyoming. The 
licensing process required extensive coordination with the 
Bureau of Land Management, with EPA, the Wyoming Department of 
Environmental Quality and the Wyoming State Historic 
Preservation Office.
    As part of our review on both the National Environmental 
Policy Act and the National Historic Preservation Act, we 
consulted with State agencies and tribal governments that 
expressed interest in protecting environmental and cultural 
sites near these facilities. We are currently conducting 
additional licensing reviews for three new facilities or 
expansions of new facilities.
    Based on the letters of intent from uranium recovery 
companies, more applications for new facilities, possibly as 
many as up to 19 applications, could be submitted in the next 
several years. With this projected workload, we certainly 
expect extensive coordination and consultation with our Federal 
partners as well as State agencies and tribal governments.
    Mr. Chairman and members of the Subcommittee, I appreciate 
the opportunity to appear before you today to describe NRC's 
regulatory program for uranium recovery. I would be pleased to 
respond to your questions.
    [The prepared statement of Mr. Weber follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Udall. Thank you very much.
    Mr. Geiser, please go ahead.

     STATEMENT OF DAVID GEISER, DIRECTOR, OFFICE OF LEGACY 
                MANAGEMENT, DEPARTMENT OF ENERGY

    Mr. Geiser. Good morning, Mr. Chairman, Senator Barrasso. 
Thank you for the opportunity to discuss the Department of 
Energy's activities related to uranium mining and milling.
    The Department has four primary responsibilities associated 
with uranium mining and milling. First is long-term 
surveillance and maintenance of former uranium mill sites. The 
second is the cleanup of the Atlas site in Moab, Utah. The 
third is reimbursements for uranium and thorium cleanup that is 
ongoing. And the fourth is the management of the uranium 
leasing program in Western Colorado.
    The Department's authority related to uranium mill sites is 
provided by the Uranium Mill Tailings Radiation Control Act, or 
UMTRCA. UMTRCA originally passed in 1978 and has two major 
sections, Title I, which addresses the uranium mill sites that 
were inactive when the law was passed, and Title II, which 
addresses the mill sites licensed as of 1978.
    The Department of Energy currently manages 21 Title I sites 
and 6 Title II sites. An additional 17 Title II sites are 
expected to be transferred to DOE by 2020. Title II sites are 
cleaned up by the commercial site owners.
    Funding for long-term surveillance and maintenance of our 
27 UMTRCA sites in 2011 was almost $8 million. In Moab, Utah, 
the Department is excavating and shipping more than 12 million 
cubic yards of mill tailings to a new disposal cell near 
Crescent Junction, Utah. DOE began moving the tailings in 2009 
and more than 4.6 million tons have been relocated to Crescent 
Junction.
    Title 10 of the Energy Policy Act of 1992 directed DOE to 
reimburse certain licensees of uranium and thorium mill sites 
for the portion of their cleanup costs attributed to sale of 
material to the Atomic Energy Commission. Licensee claims for 
reimbursement are audited and eligible costs are reimbursed by 
DOE on an annual basis. Since 1994, DOE has reimbursed $628 
million under that program.
    Last, the Department manages 31 uranium lease tracks, 
covering approximately 25,000 acres in Southwestern Colorado. 
The leasing program began in 1948 when Congress authorized the 
Atomic Energy Commission to withdraw lands from the public 
domain for the purposes of exploring, developing and mining 
uranium and vanadium ore bodies.
    In closing, DOE has and will continue to work with other 
Federal agencies, tribal nations, State and local governments 
to ensure that our actions are protective of human health and 
the environment. Thank you.
    [The prepared statement of Mr. Geiser follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Udall. Thank you very much for your testimony.
    Mr. Woolford, please go ahead.

  STATEMENT OF JAMES WOOLFORD, DIRECTOR, OFFICE OF SUPERFUND 
 REMEDIATION AND TECHNOLOGY INNOVATION, OFFICE OF SOLID WASTE 
  AND EMERGENCY RESPONSE, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Woolford. Mr. Chairman, Senator Barrasso, my name is 
James Woolford. I am Director of the Office of Superfund 
Remediation and Technology Innovation at the U.S. Environmental 
Protection Agency.
    Thank you for the opportunity to provide an overview of the 
status of EPA's efforts in addressing legacy uranium mining 
contamination on Navajo and other lands, and EPA's efforts 
related to uranium in situ recovery operations. I am 
accompanied today by my colleagues from EPA's Office of 
Groundwater and Drinking Water and from EPA's Office of 
Radiation and Indoor Air, who will be available to answer 
questions related to the agency's air and water programs 
referenced in my testimony.
    Decades of uranium mining in Arizona, New Mexico and Utah, 
primarily on Navajo Nation land, have left a legacy of uranium 
contamination, including more than 600 abandoned uranium mines, 
dozens of homes built with contaminated mine waste rock and 
contaminated groundwater wells. EPA has led the development and 
implementation of a coordinated Federal plan to address the 
uranium legacy on the Navajo Nation.
    The 5-year plan was developed in 2008 in conjunction with 
the Bureau of Indian Affairs, the Indian Health Service, 
Centers for Disease Control, Department of Energy, the Nuclear 
Regulatory Commission and the Navajo Nation. We are now in the 
fourth year of implementing that plan. The 5-year plan 
outlines, among other items, the Federal commitments to address 
contaminated homes, water sources and abandoned uranium mines.
    EPA maintains a strong partnership with the Navajo Nation, 
and since 1994, EPA has provided technical assistance and 
funding to assess potentially contaminated sites and develop 
and implement response actions. Since October 2007, USEPA and 
Navajo EPA have assessed 683 structures, 240 unregulated water 
sources and 452 abandoned uranium mines. The agencies plan to 
complete the screening of the remaining mines by the end of 
2011 and identify and prioritize response actions for the 
highest risk mines sites.
    In addition, 33 contaminated homes and other structures 
have been demolished, and 14 replacement homes have been 
constructed. We have identified 28 uranium contaminated wells 
and water systems have been built for more than 300 residents 
to replace contaminated water supplies.
    Last week, EPA released its cleanup plan for the Northeast 
Church Rock Mine in Northwestern New Mexico, which is the 
largest abandoned uranium mine site in the Navajo Nation. EPA 
also uses its enforcement authorities to address contaminated 
sites, and we have taken enforcement actions against five 
responsible parties and cleanup work has begun at four sites. 
Additional actions are planned.
    In addition to the Federal 5-year plan to address uranium 
legacy mining on Navajo lands, EPA and other Federal agencies 
developed a 5-year plan with New Mexico in 2010 to address 
releases from legacy uranium mining and milling operations in 
the Grants Mining District in New Mexico.
    I would like to quickly mention the USEPA's efforts related 
to in situ uranium recovery. There is growing interest in 
developing uranium mining sites in several States due to 
significant increases in the price of uranium. In situ 
leaching, or ISL, uses injection wells to introduce alkaline 
fluids into underground formations to mobilize uranium in the 
groundwater. Production wells subsequently bring the uranium-
bearing fluids to the surface where they are processed for use 
by the nuclear industry. The Office of Radiation and Indoor Air 
is the lead EP office for this effort.
    EPA shares authority with the NRC and with States in 
overseeing operations at ISL leaching facilities. However, if 
the operation is occurring on Federal lands, the Federal Land 
Management Agency will also have a role. NRC and agreement 
States regulate ISL operations, including the injection of 
fluids using environmental radiation and groundwater protection 
standards developed by EPA in accordance with the Uranium Mill 
Tailings Radiation Control Act.
    In 2010, the agency began an effort to review our 
regulations for uranium and thorium to determine if they should 
be updated. In the meantime, NRC has deferred its own 
regulatory effort while EPA continues its regulatory review.
    EPA's Office of Radiation and Indoor Air requested the 
agency's science advisory board conduct an advisory review to 
provide scientific and technical advice on ISL post-closure 
groundwater monitoring issues. Those efforts are ongoing. EPA, 
NRC, States and as appropriate Federal land management 
agencies, will continue to work together to coordinate our 
regulatory efforts.
    Thank you, Mr. Chairman. This concludes my remarks. I or 
one of my EPA colleagues would be pleased to answer any 
questions regarding EPA's efforts related to uranium legacy 
mining or recovery issues.
    [The prepared statement of Mr. Woolford follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Senator Udall. Thank you, and thanks to all three of you 
for your testimony today.
    I don't know whether you all were involved or at the 
agencies when Congressman Waxman held his hearings back in 2007 
over at the House. But the thing that was apparent then was 
that we had these massive cleanup problems and contamination 
problems, and there wasn't much coordination with the agencies. 
I think what grew out of those hearings that was very positive 
was the 5-year plan, all of your agencies including other 
agencies like the Bureau of Indian Affairs, came forward and 
participated in the development of those plans.
    As we have seen, we have made some real progress. I think 
that has been noted in your testimony.
    My first question really to each of you is, from your level 
in the agency, will you make the commitment to continue to do 
this until the job is done, until we get this cleanup done? Mr. 
Weber?
    Mr. Weber. We will certainly continue coordinating with our 
Federal colleagues as well as with the State of New Mexico and 
the Navajo Nation, within the scope of our authority. As you 
know, NRC is a regulatory agency. So we have specific 
authorization from the Congress to regulate the uranium 
recovery activities.
    Mr. Udall. We appreciate that, and we understand each of 
your agencies have overlapping responsibilities. But I think 
the important thing about this hearing is to have an 
understanding that you are going to work together and that we 
are going to move forward to get the job done as far as 
cleanup.
    Mr. Geiser.
    Mr. Geiser. Yes, sir, I actually had the opportunity to 
testify before Congressman Waxman on behalf of the Department. 
I totally agree with your statement, it really helped get all 
the agencies together in a coordinated manner.
    The Department of Energy established the Office of Legacy 
Management in 2003 with the express purpose of having a long-
term, sustainable management of closed sites. So today we have 
87 sites around the Country that legacy Management is 
responsible for. Those include the former uranium mill sites 
that have been remediated and put in the Department's 
responsibility.
    So the Department set up the office explicitly for that 
long-term purpose.
    Senator Udall. And you all are committed to move forward to 
get the job done on cleanup, and to work with the other 
agencies?
    Mr. Geiser. Yes, sir.
    Senator Udall. Mr. Woolford, same question.
    Mr. Woolford. Thank you, Senator.
    Recently, the Navajo Nation informed EPA that they intend 
to request a second 5-year review plan. I think we all are in 
agreement that those plans help us organize and prioritize our 
work. The agency plans to work with the Navajo Nation and our 
colleagues to put together that plan over the next year.
    So yes, you have our commitment, Senator, that we will 
continue to do what is necessary here.
    Senator Udall. And for your agency perspectives, all three 
of you believe that an additional 5-year plan is probably going 
to be needed to get the job done out there? Mr. Weber?
    Mr. Weber. Yes, sir.
    Senator Udall. Why is that?
    Mr. Weber. There is a lot of work that remains to be done.
    Senator Udall. Mr. Geiser.
    Mr. Geiser. I think another 5-year plan would be helpful to 
get all the different agencies' activities in one place. I 
don't anticipate it would actually change what we will do with 
respect to the Navajo Nation. But it helps to see what the 
other agencies are doing and making sure that we have the time 
and planning to coordinate.
    Senator Udall. Thank you. Mr. Woolford.
    Mr. Woolford. As Mr. Weber indicated, there is still a lot 
more work to be done. We think the next 5-year plan will help 
us identify the mining sites that need additional work, and 
work to coordinate among the Federal agencies and with the 
Navajo Nation. So yes, there is a lot more to be done, and I 
think we all see the necessity of having an additional 5-year 
plan.
    Senator Udall. Thank you very much.
    Senator Barrasso, I am going to turn to you now for your 
questioning.
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Geiser, you may not know the specifics, but with regard 
to the legacy uranium mill sites that I had mentioned, I don't 
know if you can explain how things are at the sites now, or if 
not, if you could get that information to me.
    Mr. Geiser. Sir, I am somewhat familiar with the sites in 
Wyoming. I know we have three at this point, Riverton, Shirley 
Basin South and Spook. We have, I think the site that has risen 
to my attention in particular in Wyoming is the Rivertonsite. 
We have had a fairly long relationship with the Wind River 
Environmental Quality Council and the individual tribes of the 
Northern Arapaho and the Shoshone.
    We recently put a new cooperative agreement in place with 
the Northern Arapaho for activities at Riverton. Unfortunately, 
the cooperative agreement we had with the Wind River Council 
was extended twice and has currently expired. Our intention is 
to continue to work with them and get a new cooperative 
agreement in place as soon as we can work through the remaining 
issue with them.
    The primary institutional control that we installed was a 
drinking water supply system for the local population. We have 
had some problems with that we have worked on with the tribes. 
We currently believe that we are being protective of human 
health and the environment and we do have a commitment to 
continue to work with those tribes.
    Senator Barrasso. Thank you. If I could perhaps get in 
writing some of the followup on the other side. Thank you.
    Mr. Weber, when I was making my opening statement, I saw 
you nodding in agreement. Could you describe for me some of the 
differences between today's uranium mining and mining that 
occurred back during the cold war?
    Mr. Weber. Certainly, sir. As I alluded to in my testimony, 
we learned the lessons from the early experiences with the 
legacy sites, primarily from the uranium recovery facility 
perspective. So if you look at the requirements that we have in 
place today and that we actively enforce, they are in place to 
ensure protection of people and the environment.
    If you take, for example, the 1979 failure of the 
embankment at the Church Rock site that Senator Udall referred 
to, our regulations today ensure that you are not going to see 
the same kind of dam failure that occurred back then. So we 
have made substantial progress, not only in ensuring the 
protection of people that work at the mills or that work in the 
nearby or live in the nearby area, but also more stringent 
groundwater protection requirements, more stringent long-term 
isolation requirements for the mill tailings and the other 
wastes that are generated through the uranium recovery process.
    Senator Barrasso. Thank you.
    Mr. Weber, and Mr. Woolford, I will start with you. Mr. 
Woolford, you stated in your testimony that the EPA will 
continue to maintain responsibility for permitting the in situ 
leading injection wells.'> I note in your testimony, Mr. Weber, 
that the NRC regulates the uranium recovery. It sound a bit 
like dual regulations to me. I am just wondering if you two 
would please clarify your respective authorities with regard to 
the in situ recovery. Mr. Woolford, do you want to start?
    Mr. Woolford. Senator, I would need to defer that to my 
colleague who is here, from the Office of Radiation and Indoor 
Air. It is not within my purview.
    Senator Barrasso. Mr. Chairman, with your permission, if we 
could get that answered?
    Senator Udall. That would be just fine.
    Senator Barrasso. Thank you, Mr. Chairman.
    Senator Udall. Please State your name and the division that 
you are with within the agency.
    Mr. Simon. Thank you. It is Roy Simon, I am with the Office 
of Groundwater and Drinking Water in the Office of Water in 
EPA. We spend a lot of time working with NRC on uranium mining 
sites, and we have cooperated. I have been involved for 4 years 
in working with NRC. We don't see it as duplicating, we see it 
as complementary. We both deal with the injection wells, we 
deal with the injection wells in EPA under the Safe Drinking 
Water Act, and we regulate the injection wells. But they 
perfectly in tune with the licensing processes.
    Mr. Weber. Just to build on that, NRC regulates the in situ 
recovery process in toto. The purpose of that is to ensure that 
the operations, if they are conducted, are conducted in 
accordance with our requirements. We consider all the way from 
the injection of the lixiviant into the reservoir or into the 
aquifer where the mining takes place all the way through to the 
extraction and concentration of the uranium and the production 
of the yellow cake product as constituting processing. 
Therefore, it meets out authority under the Atomic Energy Act.
    But I agree with my colleague from EPA, both colleagues, 
that we are working together collaboratively. There was a point 
last decade where NRC actively considered whether we should 
give up the regulation of groundwater and yield to EPA in order 
to avoid any apparently duplication. Based on a lot of analysis 
and involvement from the Commission, the Commission ultimately 
decided that was not the way to go, and that in fact the two 
programs are complementary. By close coordination with each 
other, we can carry out our respective jurisdictions in a way 
that makes sense and accomplishes both human and environmental 
protection.
    Senator Barrasso. Thank you. Thank you, Mr. Chairman.
    I have additional questions I could submit in writing. I 
know we have already started a roll call vote, and I wanted to 
provide additional time for you. Thank you, Mr. Chairman.
    Senator Udall. Senator Barrasso, did you have any more 
specifics you wanted to get out on that particular issue? OK.
    Senator Barrasso is correct, at about 10:31, a 15-minute 
roll call vote went off. So my intention is to go to about 
10:41 and then adjourn and go over and vote and come back right 
afterwards. My understanding, it is still only one vote. So if 
that is acceptable we will go ahead and proceed here for 
another 7 minutes or so, and then take a break. I would guess 
we will be back in 15 to 20 minutes, something like that, from 
the time we adjourn.
    Mr. Woolford, could you talk a little bit about the basic 
heath issues that we deal with when somebody lives near a 
contaminated, abandoned uranium mine? There are children and 
families in these areas exposed to contamination from abandoned 
mines. Has the legacy uranium mining and milling contamination 
impacted drinking water? Some of those kinds of questions. I 
think it is important to just lay the general groundwater of 
what has happened here on the health side.
    Mr. Woolford. Thank you, Senator. The exposure could occur 
via several routes. First, there could be wind-blown 
contamination that could affect individuals living nearby. 
There is also erosion that occurs on many of these tailing 
sites, which transports the contamination to other areas. Then 
we have seen that people will, children especially, will 
sometimes play in the contaminated tailings that are there.
    In addition, as you mentioned, there is the groundwater 
contamination that can occur at the site. So I think it is 
important for us to look at, examine really all three exposure 
routes, from the wind, from the erosion and then from the 
potential exposure to groundwater.
    Senator Udall. Is it also the case that we have had homes 
where they have built the homes out of material that has come 
from the tailings, and therefore we have had, when I said in my 
opening statement, radioactive homes, what you are talking 
about, I think, is the release of radon daughters that create 
radon gas. That can, if in a contained area, that would usually 
disperse, but in a contained area like a home or a closed mine 
without ventilation, you can have the buildup of that gas. It 
is a known carcinogen, causing lung cancer. That I think has 
happened in some circumstances at these sites, has it not?
    Mr. Woolford. Yes, sir, precisely. In fact, EPA has gone in 
and sampled several homes in the Navajo Nation. We have 
demolished 34 of their homes due to the unacceptable risks that 
those home pose.
    Senator Udall. Was that an unacceptable risk in terms of 
too high of a radiation level from the radon?
    Mr. Woolford. Yes. And we have replaced 14 homes.
    So yes, we have heard, as I mentioned in my opening 
remarks, there are homes, hogans, et cetera, that are built 
with the waste rock. We have been working with the Navajo 
Nation to assess those properties, and where they do pose a 
risk, then demolish those homes and replace them.
    Senator Udall. And the families that have lived in those 
homes for a period of time, what has been done there in terms 
of evaluation of the impact on their health in these kinds of 
circumstances? It takes, as I understand it, I am no expert or 
anything, but if you have exposure to radon over a certain 
period of time, it raises, the more exposure you get, the 
higher cancer risk, lung cancer risk you have. What happens 
there as far as the families and their health impacts? What is 
recommended?
    Mr. Woolford. Our first recommendation is obviously 
disassociation from the facility. So we provided alternate 
living quarters. But then we would have to monitor their 
health. Precisely what is happening with respect to the 
individual families, I would have to get back to you on those, 
Senator, to find out what monitoring and health assessments 
have been done.
    Senator Udall. But it is clear that after a period of 
exposure that some kind of monitoring and health inquiry should 
be done to see where they are in terms of their health?
    Mr. Woolford. Yes.
    Senator Udall. We have reached the point where I think it 
is probably best to just terminate the questioning here, and 
temporarily recess while we do the vote. Then we will be back. 
I apologize for that. I know that all of you are very busy in 
the responsibilities that you have. But I will get over and 
back as quickly as I can and look forward to continuing. Thank 
you very much.
    [Recess.]
    Senator Udall. Thank you very much for being patient with 
us on the break there. We will get going again. I think I have 
been given permission by the minority staff to proceed until 
Senator Barrasso either gets back here or we get other members 
of the Committee here.
    So we will come back into session. The Committee comes back 
into session.
    Let me ask a few questions here about the 5-year plans and 
funding questions. I think these are basically directed to all 
three witnesses. What I want to try to get at is the feel for 
the funding. Where does the funding for the 5-year plans come 
from in your agency budgets? What is the funding status for the 
two 5-year plans in Fiscal Year 2012 and 2013 agency budgeting? 
Why don't we just start with Mr. Woolford and move to your 
left.
    Mr. Woolford. Thank you, Senator.
    As to the source of the funding for the 5-year plan within 
EPA, EPA has been obligating approximately $12 million a year 
for the 5-year plan. This is done through our Region IX office, 
which is located in San Francisco, which has responsibility for 
the Navajo Nation.
    The funding comes from several line items in our budget. We 
have a removal line item and an enforcement line item. Those 
are the principal ones that we have. We also provide grant 
dollars to the Navajo Nation as well.
    For 2012, as you know, Senator, the EPA does not have a 
budget yet. And so at this point in time, we cannot commit to a 
particular dollar figure until we have the budget. The 
President's budget has not been submitted to the Hill and won't 
be until February. So there is a great deal of uncertainty, 
obviously, with our budget levels and our budget authority.
    Having said that, the Administration and our Administrator 
within EPA has made this one of the highest priorities within 
our program. So while I can't provide you a particular dollar 
level at this time, I can tell you that we will do our best to 
fund the work at the maximum level we can. But I just can't 
commit to a particular dollar figure at this time.
    Senator Udall. You are under now, just so people 
understand, this 6-week continuing resolution. Do you have any 
sense of, are we going to be close to the $12 million level 
during the 6-week period for this, pro-rated out and all that?
    Mr. Woolford. The $12 million figure is obviously for the 
entire year. Our regional office has not indicated to myself, I 
am one of the funding managers in the program at EPA, they have 
not indicated any funding needs during this timeframe. They 
will be using dollars that were appropriated in prior fiscal 
years to carry them through the first quarter of this year.
    Senator Udall. OK, thank you. Mr. Geiser?
    Mr. Geiser. The funding for both the 5-year plan for the 
Navajo Nation and the 5-year plan for grants all comes from the 
legacy management budget within the Department of Energy, which 
is other defense appropriations. Historically that has been 
averaging about $4 million a year for the four sites we have on 
the Navajo Nation. And that would be about half of the total of 
about $8 million a year we spend on all the UMTRCA sites 
together.
    There was one exception to this. In the 2009 Omnibus 
Appropriations, there was $5 million put in that appropriations 
for the remediation of the Highway 160 site outside Tuba City, 
Arizona. That work was just completed in August of this year.
    Senator Udall. OK, thank you.
    Mr. Weber.
    Mr. Weber. Thank you, Senator. The NRC has a relatively 
modest involvement in the implementation of the 5-year plans 
because of the sphere of our responsibilities. So we don't have 
a specific account set aside to support the implementation of 
those. When I say modest, it really involves staff involvement 
in coordination with the other agencies, and then 
implementation of review activities associated with the 
licensed activities that we do have responsibilities for. So it 
is nowhere near as large as my colleagues have described.
    But at the present time, provided the Congress enacts the 
budget that the Administration has requested, we are fine with 
resources.
    As the workload increases or decreases, if there is more 
work to be done, then provided sufficient priority, we would 
use those resources and draw that away from other activities 
that we conduct in the uranium recovery area.
    Senator Udall. And I assume if it grew large enough then 
you would just make an additional request for additional 
funding to try to make sure that we got the job done on this.
    Mr. Weber. NRC seldom does that. There are some unique 
situations. But usually we try to make do with the resources we 
have to meet the needs of the Nation.
    Senator Udall. OK. Thank you all very much.
    I want to ask a question about Crown Point to Mr. Weber. 
Crown Point is the location of a proposed in situ leach uranium 
recovery operation near the Church Rock legacy site. I 
understand the NRC has set up a license for HRI at the Crown 
Point site that is dependent on several conditions, including 
legacy cleanup. Can you clarify the status and content of HRI's 
permit at these sites and how the permitting for the four sites 
is interconnected with legacy cleanup?
    Mr. Weber. Certainly. The NRC ha issued the license to HRI. 
They are in the process of completing some preparatory 
activities that they need to conduct. So I would expect that in 
the near future we would issue letter to HRI authorizing them 
to proceed under their license, which had been issued some time 
ago.
    It is important to point out that the first activities will 
take place at some distance from the local residences that 
could ultimately be affected down the road, if those other well 
fields are eventually developed. But at this point, they 
haven't even started on their first well field that they intend 
to develop. So it will be likely years before they would be in 
a situation where they would operate under those conditions 
which would require closure of some existing wells and 
providing a suitable alternative water supply for the community 
that would be most directly near where that other development 
would occur.
    Senator Udall. And really what we are talking about is a 
community, a Navajo community of some size, for the Navajo 
Nation, pulling groundwater from the aquifer there right near 
Crown Point, which is fairly good water, is my understanding. 
And this community has relied on that for a long time. What HRI 
has done is propose to come in and do mining in that aquifer. 
So you and your permit have put a number of conditions as to 
status and content in their permit.
    And my next question really goes to, if the requirements of 
the permit were fulfilled, could the NRC and the EPA guarantee 
a safe and consistent water source for the Crown Point 
community? Because that is the key to them. I think that is the 
big concern the Crown Point community has.
    Mr. Weber. That is the requirement that is in our license 
condition that applies to providing alternative water for the 
local community. I would point out that in the history of in 
situ recovery regulation that we have not seen a situation 
where a local supply well has been adversely impacted by the 
mining. We monitor those sites quite carefully. There are very 
rigorous requirements that are imposed on the operators of the 
in situ recovery operations.
    They have seen excursions. An excursion is where an 
elevated level has been detected in either a monitoring well 
laterally, distant from the mine field, or above or below the 
aquifer that is being mined. But then if those excursions are 
detected, the licensee has to take action to correct that 
situation and at the end of active mining, has to restore the 
aquifer back to suitable water quality standards.
    So in the situation with HRI Crown Point, the objective is 
really two-fold, that before they start doing any mining, they 
would have to provide that alternative water supply for the 
local community. And that is a large requirement in and of 
itself. But even beyond that, there would be requirements in 
place to ensure that the groundwater is protected outside of 
the mining zone and that when the mining, if it is conducted, 
when it is completed, the aquifer is then restored to a 
suitable quality.
    Senator Udall. Is that what you have done at other sites 
over the years, is require that, and you have been able to 
establish, to some kind of scientific certainty, that can be 
done?
    Mr. Weber. Yes. We have approved restoration of mine fields 
that are no longer in use. I would say the provision by the 
licensee of an alternative water supply is unique. Typically, 
the in situ recovery facilities are located at some distance 
from communities. So that doesn't present itself.
    But in this situation, because of the unique circumstances 
involving HRI Crown Point, that was a provision in the 
licensing of the facility.
    Senator Udall. And I think that is one that has been 
greatly appreciated by the local community that you put that in 
there and that you are going to aggressively protect their 
groundwater supply.
    A question now to Mr. Woolford on Church Rock. Let me first 
say that I applaud the EPA's recent announcement of an improved 
plan to clean up the Northeast Church Rock Mine, the largest 
and highest priority uranium mine on the Navajo Nation. I would 
like first to get a little more information from you on the 
details of this plan and the potential time line for 
completion.
    Could you please describe the high points of the approved 
cleanup plan?
    Mr. Woolford. Thank you, Senator. I would be happy to do 
that.
    This plan is the culmination of many years of efforts 
between the EPA and the Navajo Nation and the Redwater Pond 
Road community living near the site. We have held extensive 
meetings with the community to come up with a remedy that we 
have selected. And we believe the plan has the general support 
of the Navajo Nation and the local community.
    We considered 14 disposal sites. Ultimately we chose what 
in concept is a pretty simple remedy to move the contaminated 
waste rock and contaminated soils from the Northeast Church 
Rock Mine site literally almost across the street to the UNC 
site. But it is over 870,000 cubic yards of contaminated waste 
rock and over 100,000 cubic yards of contaminated soil.
    The cleanup will involve first and foremost working with 
the community to ascertain whether the work we are going to be 
doing will impact them. We will offer the community members 
relocation opportunities. We will then, and that will be the 
first thing that we do. So we are going to start that activity 
this fall.
    We then have to design the repository for the final mine 
cleanup. We will be doing that in conjunction with the Navajo 
Nation, New Mexico DP, the NRC, the Department of Energy and 
General Electric. This will probably take about a year. So we 
are looking at, that will probably take 2012 into 2013.
    The NRC and the Department of Energy, DOE will be the 
ultimate overseer of this remedy. So we have to work with my 
colleagues from the Department of Energy to ensure that what we 
are doing is consistent with their requirement and with the NRC 
requirements.
    We also, because this is going to a separate Superfund 
site, we are working on a remedy there. That remedy has to be 
selected before we can do all that?
    Then we have to go through the licensing amendment process, 
with the NRC. All told, we are thinking that will probably take 
into 2014. At that time, assuming there are no glitches, we 
will begin the cleanup process. And then we think we will 
complete the cleanup actions by 2018 or 2019.
    Senator Udall. I think you have said this here, but there 
are two separate areas that the contaminated mine waste goes 
to. I think one is offsite, which will be trucked to a licensed 
disposal site. Then there will also be a disposal cell 
designed.
    Mr. Woolford. Yes.
    Senator Udall. I want to ask a question about, to what 
extent has the disposal cell been designed and how has or will 
the surrounding community be involved in that decision and be 
able to comment on that?
    Mr. Woolford. The disposal cell has yet to be designed. 
That is what we will need to work on with my colleagues to my 
left, the State of New Mexico and the Navajo Nation. When the 
design is completed, we will offer an opportunity for public 
comment on that disposal cell. So there will be extensive, as 
we committed to with our prior actions, there will be extensive 
community interaction and an opportunity for community comment 
on that disposal cell.
    Senator Udall. Thank you.
    Mr. Geiser, do you have any comment on what you just heard, 
or anything to add to that? Is that your understanding as to 
how the agencies are proceeding on this, and specifically your 
agency?
    Mr. Geiser. Yes, sir. EPA approached us about 2 years ago 
with the idea of combining the mining waste with the mill 
waste. For the last 10 to 12 years, the Department has agreed 
to accept non-mill waste in the disposal cells under certain 
conditions.
    So this has a precedent that we have been able to do this 
in the past. This is the single largest volume of non-11(e)(2) 
material that would be put in the disposal cell. We appreciate 
EPA inviting us to be on the design team for the disposal cell. 
We feel we have a lot of expertise to offer in that area. And 
particularly since we would be the long-term manager for the 
disposal cell, we are interested in making sure that design 
works for the long term.
    So it seems like a practical solution, and we will continue 
to work with EPA and NRC on how to accomplish that.
    Senator Udall. Mr. Weber, do you have anything else to add 
to that?
    Mr. Weber. Sure thing, thanks, Senator. As Jim talked 
about, there will be a license amendment that will be required, 
because it will require a revision to the reclamation plan for 
UNC's tailings enpanelment. You asked about public involvement, 
just like under the EPA Superfund process, there will be the 
complementary process that we conduct where there will be an 
opportunity for public comment. We anticipate preparing an 
environmental assessment to support this revision. That would 
be going out for public comment. There would be opportunities 
for parties to request an opportunity for a hearing associated 
with reclamation plan revision.
    So there are numerous opportunities. I think it behooves 
all of us to work together to do that in a collaborative way so 
that we don't confuse the public and involve them and give them 
more opportunities. I think we want to give them meaningful 
opportunities to be involved early on in the process, as they 
already have had under the EPA Superfund process.
    Senator Udall. Great. Thank you very much.
    A question now on the Tuba City site. And this is to Mr. 
Woolford, but if any of the other witnesses have any comment, 
we are happy to hear that. It is my understanding there is a 
significant groundwater contamination problem at the site of 
the Tuba City dump. Since 1995, there have been more than 35 
studies conducted on the Tuba City open dump.
    I further understand that an EPA study did not find 
evidence of tailings in the dump. Can you describe the findings 
of EPA's recently completed study of the Tuba City open dump 
and what does the EPA believe is the source of contamination at 
the Tuba City dump?
    Mr. Woolford. Senator, I am not familiar with any recent 
EPA study. I am familiar with a study that was conducted by the 
Hopi Tribe, which they submitted to EPA in August. And that 
study concluded that there was groundwater contamination 
adjacent to the dump.
    Senator Udall. Do you all agree with that?
    Mr. Woolford. We received it in August. We are currently 
reviewing it, and we have plans to meet with the tribe at the 
end of October to go over the study.
    We have an enforceable agreement with the Bureau of Indian 
Affairs to actually conduct a comprehensive investigation and 
feasibility study to ascertain whether or not the dump is 
actually contaminating the groundwater. The groundwater is 
contaminated. Everyone knows that. We are not 100 percent sure 
of the source. That is what the RFS that we are working on is 
designed to accomplish.
    However, if it turns out that there is good information in 
this Hopi study, we would certainly use it to accelerate our 
process.
    Senator Udall. Does the Tuba City open dump site pose a 
threat to drinking water of the Navajo Nation or the Hopi 
Tribe?
    Mr. Woolford. Yes, we believe it does.
    Senator Udall. And what is the plan for the remediation of 
the dump, and are efforts underway at this point? What are the 
remaining hurdles?
    Mr. Woolford. It would be premature, we haven't selected a 
remedy as yet. That is what would be the outcome of the RFS 
process that we are currently engaged in with the Bureau of 
Indian Affairs. So it would be premature for me to say what the 
remedy would be without the completion of that study.
    Senator Udall. I fully understand. Mr. Geiser or Mr. Weber, 
do you have any comment on that?
    Mr. Geiser. There is, both the Navajo and Hopi believe that 
there was mill tailing material dumped in the Tuba City open 
dump and that is the source of the uranium contamination. There 
have been over 200 borings taken of the open dump. None of them 
found mill material. EPA recently led an effort, about a year 
ago, to excavate areas near the highest recorded uranium in the 
open dump and again found no evidence of mill material.
    Our belief is that the mill that operated near Tuba City, 
about four miles out of town, dumped all the mill material at 
the mill site, and that is now in our Title I disposal cell 
there. There was also some discussion about the disposal cell 
site, that contamination was migrating in the subsurface from 
the disposal cell site to the Moenkopi Village wells. At the 
request of the Navajo Nation, we installed additional wells, or 
actually worked with the Navajo, who installed the additional 
wells.
    All those wells came up clean for uranium. So we don't 
believe there is a hydrological connection between our disposal 
cell and the Moenkopi Village wells. There is no evidence to 
date that there is mill tailing waste in the Tuba City open 
dump, which is closer to the town.
    Senator Udall. Thank you.
    One final question here, and this is a little bit different 
direction, but I think it helps address the overall issue, and 
that is the issue of 1872 mining law reform and potential 
abandoned mine funding. The President's Fiscal Year budget for 
2012 includes a proposal for fees and royalties for hard rock 
mining leasing and production, similar to the process we have 
for oil, gas and coal leasing. In the President's proposal, 
part of the revenue would be used for an abandoned mine land 
cleanup fund.
    In your experience, is there a need for a reliable source 
of funding for abandoned uranium mine cleanup? Mr. Woolford? 
And you can answer that just yes or no if you want.
    Mr. Woolford. I would say, yes, it would be nice to have, 
Senator.
    Senator Udall. Mr. Geiser.
    Mr. Geiser. Senator, I had the opportunity to testify 
before the Senate Energy and Natural Resources Committee in 
March 2008 on the Department's uranium leasing program. In that 
program, we do collect royalties, both a base fee and any kind 
of production related royalties. The companies also have, in 
lieu of payments, done mine waste reclamation on those lease 
tracks. So there seems to be value in collecting those 
royalties, and also other forms, financial mechanisms such as 
bonds, to make sure that as the company completes their mining 
activity, there is money available to do the reclamation 
immediately following the end of the mining.
    Senator Udall. Great. Mr. Weber, do you have a yes or no 
answer on that?
    Mr. Weber. Your question falls well outside of NRC's scope 
of authority, so I would not offer a response.
    Senator Udall. Thank you.
    Let me just once again thank all of our witnesses. I am at 
this point going to conclude the hearing. We will keep the 
record open for 14 days and will submit any further questions 
in writing to our witnesses. We hope that you will diligently 
work on those.
    With that, the hearing is adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
   

                       <all>
</pre></body></html>
